No. 21-

THE SUPREME COURT OF THE UNITED STATES
Elizabeth Shaw,
Petitioner,
vs.
Derek Shaw,
Respondent.
PROOF OF SERVICE

I, Elizabeth Shaw, certify that on July 2, 2021, as required by Supreme Court
Rule 29, have enclosed this PROOF OF SERVICE, the corrected MOTION FOR
LEAVE TO PROCEED IN FORMA PAUPERIS, and the corrected PETITION FOR A
WRIT OF CERTIORARI on each party to the above proceeding, or that party’s
counsel, by depositing an envelope containing the above documents in the United
States mail properly addressed to each of them at their last known address and with
first-class postage prepaid.
The name and address of those served is as follows'
Derek Shaw
5409 SE 113th
Portland, Old 97266
In accordance with their Tribal Code, arrangements for personal service on the Miami
Tribe of Oklahoma has been made. Proof of said service will be provided separately
to this Court.
I declare under penalty of perjury that the foregoing is true and correct.
Executed on July

2

, 2021.

\4Ajloj
Elizabeth Shaw

